                U.S. GOVERNMENT
                PRINTING OFFICE                                            Office of the Public Printer
                KEEPING AMERICA INFORMED




November 30, 2006


The Honorable Trent Lott
Chairman
Joint Committee on Printing
305 Russell Senate Office Building
Washington, DC 20510

Deur Mr. Chairman:

In accordance with 44 U.S.C. 3903 and the relevant provisions of the Inspector General Act of
1978, as amended, I am transmitting to the Congress the Semiannual Repon of the Office of the
Inspector General (OlG) for the U.S. Government Printing Office (GPO), covering the 6 month
penod of April I, 2006 through September 30, 2006, along with the following information as
reqLlired by law. This letter meets my statutory obligation to provide comments on the OIG's
report and highlights management actions taken on the OIG's recommendations, which may
rei ute to more than one repolting period.

During this reponing pel10d, the GPO General Counsel, Anthony Zagami, announced his
intention to retire at the end of the year. I selected Gregory Brower, GPO's Inspector General, to
become the new General Counsel. I have appointed J. Anthony Ogden, deputy Inspector
General, to serve as acting Inspector General until a permanent TO is selected. In addition, the
Superintendent of Documents, Judy Russell, announced her intention to retire in 2007.
Recruitment for that position continues.

General Comments

As provided for by law, this section offers my general comments on the OIG's semiannual report
and operations.

1.      Management Challenges. The Inspector General identified ten challenges facing
        GPO's management. We agree that all of the areas highlighted reflect areas that are
        either undergoing significant change or are by nature dynamic and require continuing
        artention. While we will maintain our focus on each of these challenges we note that one
        or more may be oveltaken or subsumed by new challenges undertaken by the next Chief
        Executi ve of the GPO. The thorough organizational and technological transformation
        that we have begun implementing during the last three years remains critical to the future




                732 North Capitol Street NW    Washington, DC 20401·0001         PublicPrinter@gpo.gov
The Honorable Trent Lott - Page 2


      of GPO. This effort must continue if the agency is to maintain its ability to provide
      public access to Government information through the 21 st century. The necessary pieces
      have been put in place for the next generation of GPO employees. Recruitment and
      training in the required skills has begun. New systems are being acquired or developed,
      the most critical of which, known by the placeholder name "Future Digital System"
      (FDsys), will preserve and provide permanent public access to Federal Govemment
      information.

       [ do not take exception to any of the len challenges offered by the IG, since all of them
       are vital to GPO's continuing transfonnation. The next Public Printer would be wise to
       incorporate these challenges into his near-tenn plan for GPO's development. GPO
       cannot afford to reverse its course - the completion of the transfonnation now underway
       is critical to providing the Nation with a 21" century digital platform for providing a
       broad new range of choices in the delivery of published Government infonnation.

II.    Audits and Inspections. During the reporting period, the OIG issued four new audit
       and inspection reports with 14 recommendations to help improve operational
       performance. Management has conculTed with all of these recommendations and will be
       addressing each one in the ensuing semiannual reporting peliod.

          o The first report, Audit of Centrally Charged Travel Expenditures, recommended
            that GPO eliminate the use of GPO's agency MasterCard account for air and rail
            tickets and for the attendant travel agency fees, and direct the travel agency to
            charge all tickets and fees to either the individual traveler's Government-issued
            MasterCard or personal credit card.

          o   The second report, Web Trust Pre-Assessment of GPO Certificate Authorities,
              summarized gaps and deficiencies identified during the pre-assessment phase of
              testing, and made several recommendations requIring attention prior to the final
              WebTrust assessment process.

          o   The third report, Close-out of GPO Travel Program Audit, summarizes issues
              identified in a series of three repolis on GPO's travel program and lists four issues
              for attention without making formal recommendations.

          o   The fourth report, Audit of Settlement Proposal by [GPO Contractor}, reviewed a
              settlement proposal submitted by a contractor on two purchase orders canceled for
              convenience, and was advisory in nature.
The Honorable Trent Lott - Page 3


       Management concUITed with, and took action on, the recommendations issued in the first
       audit report, Audit of Centrally Charged Travel Expenditures, through the Issuance of
       GPO Directive 815: GPO Travel Procedures, which requires GPO official travel to be
       paid via either the traveler's individual GPO travel card or reimbursement in response to
       a voucher filed by the traveler, Management concurred with, and took action on, the
       recommendations in the second audit report, WebTrust Pre-Assessment of GPO
       Certificate Authorilies, prior to the final WebTrust phase, as indicated in the IG's
       Semiannual Report, Management concun'ed with, and took action on, the issues listed in
       the third audit report, Close-out of GPO Travel Program Aadit, through the issuance of
       GPO Directive 815: GPO Travel Procedures, as indicated above, Management received
       the advice in the fourth audit report, Audit of Settlement Proposal by [GPO Contractor]
       and negotiated a settlement agreement in accordance with Materials Management
       Acquisition Regulations,


III.   Investigations, The investigative work performed by OIG's staff protects against waste,
       fraud, and abuse, Their labor once again merits recognition, as a workers' compensation
       case was accepted by the Department of Justice (DOJ) for criminal prosecution, Other
       accomplishments, such as the investigations that led to arrests for theft of office supplies,
       to contructor debarments, to recovery of fraudulently claimed contractor payments, and
       to administrative action on travel and overtime fraud, are clear evidence of the value of
       the OIG's investigative team in protecting the publiC funds entrusted to the GPO,




Prior Period Out.standing Recommendations

As required by law, this section summarizes management's planned action to address remaining
OIG's recommendations still outstanding from previous reporting periods,

              Improving Controls over Contract Modifications in the Central Office
                         (Report No, 03.04, dated Septembcl' 30, 2003)

GPO concun'cd with the OIG recommendation and developed a two-phase schedule for the
appropriate system improvements, The schedule for these database consolIdations calls for
completion of Phase I by the end of March 2007. with Phase II projected to be completed by the
end of December 2007,
The Honorable Trent Lott - Page 4


                           Blank Passport Product Integrity and Security
                            (Report No. AI-0502, dated March 31, 2005)

GPO generally concurs with the recommendations and has made continuous adjustments to its
operations in order to address them. At present eight recommendations remain open. and GPO is
raking action to close them. We expect several more will be closed in the next reporting period.




                   Financial Statement Audit - KPMG Recommendations

GPO generally concurred with the twelve information technology-related recommendations, and
has resolved four (4) of these items. GPO has made progress in addressing the remaining
recommendations, and continues to take action to resolve these open items. GPO communicates
resolution status and progress monthly to the 01G.


        GPO Network Vulnerability Assessment (Report No. 06·02, dated March 28, 2006)

GPO concurred with the four recommendations issued in this report, and has closed one of the
them. A second recommendation is partially resolved, and is expected to be fully closed by
December 31,2006. The other two recommendations are being addressed by GPO, with
progress based on system risk and criticality, as recommended. These items are expected to be
resolved by March 31, 2007.




                  GPO Oracle Program (Report No. 06.03, dated March 31, 2006)

GPO concurred with the report's thirteen recommendations and will take the necessary actions to
close them in the course of the Oracle project's implementation. GPO is now in the process of
hiring an Oracle Program Manager who will take responsibility for closing the recommendations
issued in this report.

                         Inspection of GPO's Continuity of Operations Plan
                             (Report No. 06-04, dated March 31, 2006)

GPO conclIll'ed with the report's eighteen recommendatIOns, all of which focused on the
requirement to establish a viable COOP Plan. GPO management considers all eighteen
recommendations closed. The OIG is evaluating actions taken on the recommendations, and
anticipates closure of most items during the next period. In response to the recommendations.
Honorable Trent LOll - Page 5


GPO developed a comprehensive COOP Plan based on the FEMA Template. GPO's plan was
subsequently circulated, revised, and approved. GPO's COOP Plan documents the elements of
FPC 65 - Plalls ami Procedures, minimizing disruption of business operations while providing
for continued pel'formance of GPO's essential functions; plans for the activation, relocation,
alternate operating facilities, operations, and reconstitution of operations; and prioritizes GPO
essential functions.


Statistical Tables

Statistical tables as required by law are enclosed,

If you need additional information with respect to this report, please do not hesitate to contact
Mr. Andrew M. Sherman, Director of Congressional Relations, on 202-512-1991, or bye-mail at
asherman@gpo.gOY.

Sincerely,




Public Printer

Enclosures

cc:    The Honorable Vernon Ehlers, Vice Chairman
       The Honorable Thad Cochran
       The Honorable Saxby Chambliss
       The Honorable Mark Dayton
       The Honorable Daniel K. Inouye
       The Honorable John T. Doolittle
       The Honorable Thomas M. Reynolds
       The Honorable Juanita Millender-McDonald
       The Honorable Robert A. Brady
